        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Industrial Carbon Capture and
Storage Program Funded by the
American Recovery and
Reinvestment Act




OAS-RA-13-15                        March 2013
                                 Department of Energy
                                   Washington, DC 20585
                                        March 21, 2013

MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's Industrial
                         Carbon Capture and Storage Program Funded by the American Recovery
                         and Reinvestment Act"

INTRODUCTION AND OBJECTIVE

The Department of Energy received nearly $1.5 billion through the American Recovery and
Reinvestment Act of 2009 (Recovery Act) to invest in clean industrial technologies and
sequestration projects through the Industrial Carbon Capture and Storage Program (Carbon
Program). The National Energy Technology Laboratory awarded 46 cooperative agreements to a
variety of demonstration and research and development projects. The agreements required
substantial involvement by Federal project managers and relied on recipients, such as private
industry and universities, to share in the investments needed to complete the projects. As of
February 2013, more than 2 years after the Carbon Program had fully obligated its Recovery Act
funding, only about $623 million, or less than 42 percent, of the funds had been spent.

Previous Office of Inspector General reviews identified weaknesses in the Department's
management of financial assistance awards. For instance, our audit report on Management of
Fossil Energy Cooperative Agreements (DOE/IG-0692, July 2005) found that the Department
had not always provided adequate monitoring and oversight of cooperative agreements, and
Federal project officials had not always taken sufficient action to address project management or
financial shortcomings. In response to the report, the Department committed to address the
weaknesses highlighted in our report. In light of previous concerns and the significant amount of
Recovery Act funding, we initiated this audit to determine whether the Department had
effectively and efficiently managed the Carbon Program.

RESULTS OF AUDIT

We found that the Department had not always effectively managed the Carbon Program and the
use of Recovery Act funds. In particular, our review of the Carbon Program, including 15
recipients awarded a total of approximately $1.1 billion, revealed that the Department:

   •   Had not adequately documented the approval and rationale to use $575 million of the
       $1.1 billion that we reviewed to accelerate existing projects rather than proceeding with
       new awards as required by Federal and Department policies. Even when program
       officials provided explanations regarding the selection process, our review of available
       documentation revealed evidence that was either inconsistent with or did not otherwise
       support their assertions.
                                                2
   •   Reimbursed recipients approximately $16.8 million without obtaining and/or reviewing
       adequate supporting documentation. Yet, we were able to identify, for one recipient,
       over $2.4 million in costs charged to the project that were questionable and/or
       unallowable. Despite a Department prohibition against reimbursing requests for pre-
       award costs, the Department reimbursed more than $1 million in such costs. In addition,
       the Department reimbursed approximately $14.4 million for costs incurred by three other
       recipients even though the costs were not substantiated by supporting documentation
       such as invoices.

   •   Awarded three recipients over $90 million in Recovery Act funding even though the
       merit review process identified significant financial and/or technical issues. For example,
       the Department awarded more than $48 million to one recipient whose financial
       condition precluded it from obtaining a satisfactory merit review score. Rather than
       addressing the underlying issues, the Department accepted increased risk and lowered the
       recipient's required cost share. At the time of our review, the recipient had been unable to
       raise even the reduced required cost share contribution, increasing the risk that the
       project's goals may not be realized. We noted that 2 years after award, the three
       recipients had only spent about $7 million and experienced delays finalizing agreements
       due to problems meeting financial commitments and overcoming technical issues
       impacting the scope of work for the projects. The challenges precisely paralleled the
       initial concerns raised during the merit review process.

   •   Had not ensured that recipient subcontractor or vendor selections for goods and services
       represented the best value to the Government. Specifically, for three recipients we
       reviewed, the Department had not reviewed contracting actions totaling over $4.1 million
       to ensure that the selections were arm's-length transactions and did not comprise conflicts
       of interest. To cite the relevant concerns with the Department's inaction, we identified
       transactions totaling over $1.4 million in which one recipient contracted with an affiliated
       company that had representatives on its own Board of Directors.

The issues we identified occurred, in part, because program officials had not always provided
effective monitoring and oversight of recipient activities. Specifically, the Department had not
implemented certain performance monitoring controls that would have allowed for more
thorough reviews of costs prior to reimbursement. For example, despite indications to the
contrary, the Department allowed some recipients to remain on a "draw down" method of
reimbursement, a practice in which no supporting documentation was reviewed prior to payment.

In addition, we found that policies and procedures related to managing the Carbon Program were
either not developed or not fully implemented. For instance, the Department had not developed
formal policies and procedures requiring officials to evaluate or seek resolution of apparent
related party transactions or potential conflicts of interest apparent in awarder-substituted
materials. An underlying cause of ineffective oversight was the approach Department officials
took in monitoring these agreements. The responsible Federal officials indicated that their
involvement under cooperative agreement financing instruments was limited to technical
monitoring rather than financial oversight of projects. However, cooperative agreements, by
definition, require the substantial involvement of the Department, including enhanced oversight
and stewardship responsibilities, specifically including reviews of financial performance.
Thorough reviews of procurement practices and costs may have identified certain weaknesses
                                                 3
noted in our report, including potential conflicts of interest and inadequate competition. Finally,
despite Federal and Department policies requiring that significant decisions be documented,
program officials had not maintained records related to decisions to allocate funds to accelerate
existing projects.

Notably, the Department expeditiously obligated all of its Carbon Program funds to comply with
the time constraints of the Recovery Act. These projects represented an investment in the
development of clean coal technologies which was unprecedented in terms of cost and scope.
Yet, despite the magnitude of the effort, the issues discussed in our report could, if unresolved,
impact the ability of the Carbon Program to meet its objectives and the goals of the Recovery
Act. As noted in our report, we identified up to $18.3 million in questionable reimbursement
claims that were approved by the Department for just the limited sample of awards reviewed.
With approximately $860 million in Recovery Act Carbon Program funds yet to be spent, we
believe the Department still has an opportunity to implement needed program enhancements and
internal controls designed to increase the likelihood of a successful outcome. As such, we have
made recommendations designed to improve the Department's implementation of the Carbon
Program.

MANAGEMENT REACTION

Management concurred with three of the four recommendations in our report and indicated that it
had initiated and/or taken corrective actions to address our findings. Management did not agree
that procedures should exist related to identifying and documenting potential conflicts of interest.
In particular, management indicated that it was the recipients' responsibility to identify and
mitigate conflicts of interest using plans or policies specific to the organization. While we agree
with management's position that recipients have a duty to identify and mitigate conflicts of
interest, program managers also have responsibilities in this case. Specifically, Federal and
Department regulations require the Department to review costs for related party transactions,
including potential conflicts of interest and arm's-length transactions. Management's comments
and our responses are summarized and more fully discussed in the body of the report.
Management's comments are included in their entirety in Appendix 4.

Attachment

cc:   Deputy Secretary
      Acting Under Secretary of Energy
      Assistant Secretary for Fossil Energy
      Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S INDUSTRIAL
CARBON CAPTURE AND STORAGE PROGRAM FUNDED BY THE
AMERICAN RECOVERY AND REINVESTMENT ACT


TABLE OF
CONTENTS


Carbon Capture and Storage Program

Details of Findings ...............................................................................................................1

Recommendations ..............................................................................................................15

Comments ..........................................................................................................................16


Appendices

1.    Questioned Costs ........................................................................................................19

2.    Objective, Scope and Methodology ............................................................................20

3.    Prior Reports...............................................................................................................22

4.    Management Comments .............................................................................................23
THE DEPARTMENT OF ENERGY'S INDUSTRIAL CARBON CAPTURE
AND STORAGE PROGRAM FUNDED BY THE AMERICAN RECOVERY
AND REINVESTMENT ACT
CARBON CAPTURE   Our review found that the Department of Energy (Department)
AND STORAGE      had not always effectively managed the Industrial Carbon Capture
PROGRAM          and Storage Program (Carbon Program) and the related use of the
                 American Recovery and Reinvestment Act of 2009 (Recovery Act)
                 funds. Specifically, the Department had not documented
                 significant program decisions when awarding Recovery Act funds
                 to accelerate existing projects. In addition, recipients claimed
                 costs that were questionable and/or unsubstantiated and the
                 Department reimbursed such costs. The Department also awarded
                 Recovery Act funds to recipients that had technical and/or
                 financial issues identified during a merit review process – issues
                 that resulted in schedule and/or scope changes that may impact the
                 ability of the Carbon Program to meet intended goals.
                 Furthermore, procurement practices supporting the program were
                 not always adequate to ensure that recipients' subcontract or
                 vendor selections were appropriate and in accordance with relevant
                 policies and procedures.

                                  Acceleration of Existing Projects

                 Our review identified several issues related to the Department's use
                 of Recovery Act funds to accelerate existing projects. Recovery
                 Act guidance stipulated that funds be awarded to competitively
                 selected projects within the Carbon Program. We found, however,
                 that management awarded about $575 million non-competitively
                 by accelerating existing projects. Although the Department
                 documented its rationale in some instances, we determined that the
                 documentation either negated or did not fully support a number of
                 management's assertions.

                 Program officials did not provide detailed documentation to
                 support decisions to provide significant Recovery Act funds to
                 existing projects despite our numerous requests. Instead, officials
                 told us that the Department had not received the number of
                 applications anticipated under the competitive solicitation and
                 determined that issuing another solicitation was not feasible due to
                 time constraints to obligate Recovery Act funding by
                 September 30, 2010. Therefore, a decision was made to use
                 approximately $575 million of Recovery Act funding to advance
                 existing, previously competitively selected projects that could
                 contribute to carbon capture and storage research and
                 development. Program officials stated that they worked with the
                 Office of Management and Budget and Congressional staff to
                 obtain approval for the decision to allocate the funds to existing



Page 1                                                            Details of Finding
                                   projects. In addition, individuals we spoke with asserted that
                                   funding decisions were made by senior level officials at
                                   Headquarters and were outside of their control. Department
                                   officials, however, did not develop or failed to maintain
                                   documentation supporting these decisions. Failure to develop
                                   and/or maintain such documentation contradicted Federal 1 and
                                   Department 2 policies that require documentation demonstrating
                                   steps taken to finalize a decision be maintained, including research
                                   conducted and input from other organizations participating in the
                                   decision process.

                                   Lacking documented rationale for selecting projects, we were not
                                   able to validate the basis for funding the projects. For example,
                                   program officials told us that they considered all projects in the
                                   Office of Fossil Energy's portfolio to develop a listing of projects
                                   to accelerate that would most benefit the Carbon Program's goals.
                                   Through an iterative process that included daily teleconferences,
                                   the program identified 30 projects to receive additional funding.
                                   We noted, however, that the results of discussions were not
                                   recorded, and we could not obtain detailed documentation
                                   demonstrating the analysis used to justify the selections. For one
                                   of the awards we evaluated, $71 million was provided to an
                                   existing project based on the Department's belief that expanding
                                   the project would reduce capital costs, improve the efficiency of
                                   the technology and accelerate the development schedule by 3
                                   years. Because the Department had not developed or did not retain
                                   detailed analyses or documentation to support the assertions related
                                   to this and other similar projects, we were unable to objectively
                                   determine whether the projects selected were the most beneficial or
                                   in the best interest of the Government.

                                   While program officials described the rationale for the reallocation
                                   of funds or subsequent project selections, our review of available
                                   documentation contradicted a number of those assertions. For
                                   example, officials indicated that a key consideration for selecting
                                   projects to accelerate was whether the projects were previously
                                   awarded through a competitive solicitation process. However, we
                                   noted instances in which this had not occurred. In particular, we
                                   found that the Department awarded additional funding for one
                                   recipient even though the project had not been competitively
                                   selected and had a history of poor performance. The Department
                                   indicated that the project was not subject to competition; however,
                                   the predecessor award had gone through such a process in 1999.
                                   While true, the prior award had a different scope of work and a

1
    36 Code of Federal Regulations Subchapter B 1222.22 (e) and 1222.10 (b)(4)
2
    Department of Energy Records Management Handbook, Chapter IV (12)(h) and (12)(h)(4)


Page 2                                                                                    Details of Finding
                                      significantly smaller project cost. In addition, the company's
                                      management structure had changed during the intervening time. In
                                      another case, we noted that the Department asserted that it had
                                      accelerated a recipient's project by providing an additional $20
                                      million, citing similar reasons as in the previous example.
                                      However, the project began to fall behind after receiving the
                                      additional funding, and was 1 year behind schedule at the time of
                                      our review. In summary, despite Recovery Act guidance that
                                      stated projects should be competitively selected, we found that the
                                      Department had awarded over $500 million to eight existing
                                      projects that had not been subjected to contemporaneous
                                      competition. Based on the inconsistencies we identified, we were
                                      unable to fully assess the competitiveness of the awards.

                                                                   Questioned Costs

                                      The Department approved questionable and/or unallowable
                                      reimbursement claims and cost share contributions for 4 of the 15
                                      recipients we reviewed. In particular, for one recipient, our
                                      examination of records identified over $2.4 million in costs
                                      charged to the project that were questionable or unallowable. For
                                      the other three recipients, we noted that the Department approved
                                      approximately $14.4 million in cost reimbursements without
                                      obtaining and reviewing adequate documentation to substantiate
                                      the costs. Specifically:

                                          •    For one recipient, our evaluation identified more than $2.4
                                               million in questionable and/or unallowable costs charged to
                                               the project. Contrary to a Department memorandum
                                               prohibiting the recipient from being reimbursed for pre-
                                               award costs, we found that the recipient was reimbursed for
                                               more than $1 million in such costs. In addition, we
                                               identified over $770,000 in bonuses that were paid to
                                               employees over 3 years, including more than $340,000 in
                                               the first quarter of 2012. Although required by Federal
                                               regulations 3, we noted that justification supporting the basis
                                               for the bonuses had not been documented. Finally, we
                                               questioned an additional $600,000 related to various
                                               activities, including reimbursements for interest and
                                               penalties on underpaid taxes, legal fees associated with
                                               valuation of company stock, and other costs related to
                                               travel and employee meals that were specifically
                                               unallowable under Federal regulations. 4 In response to our


3
    48 Federal Acquisition Regulations System Part 31 Section 205-6 (f)(1)(ii)
4
    48 Federal Acquisition Regulations System Part 31


Page 3                                                                                   Details of Finding
                                             review, the Department indicated that it had initiated
                                             actions to recover unallowable costs identified for this
                                             recipient.

                                         •   For another recipient, the Department had not obtained
                                             detailed documentation substantiating approximately $10.1
                                             million in funding reimbursed to the recipient. To enhance
                                             controls, the recipient was placed on a "request for
                                             reimbursement" method of payment in 2010, which
                                             required invoice backup to be submitted to the Department
                                             prior to approval and disbursement of funds. We found,
                                             however, that the documentation submitted as part of the
                                             reimbursement requests lacked supporting evidence such as
                                             vendor invoices or receipts for equipment purchases. In
                                             addition, we reviewed documentation for a limited sample
                                             of transactions and determined that almost one-third of the
                                             items contained questionable or unallowable costs.
                                             Without adequate supporting documentation, we were
                                             unable to determine the allowability and reasonableness of
                                             all costs charged to the project. As such, we questioned
                                             approximately $10.1 million in costs claimed under the
                                             award.

                                             In response to our review, Department officials requested
                                             backup documentation from the recipient to support the
                                             questioned costs. While we recognize the Department's
                                             efforts to resolve the questioned costs identified, we do not
                                             believe the documentation provided was sufficient to
                                             determine the allowability of costs charged to the
                                             Department. For example, we noted that the Department
                                             did not obtain documentation for all cost categories such as
                                             labor and travel, among other things. In addition, we
                                             identified instances in which the recipient charged
                                             estimated costs to the project instead of actual costs
                                             incurred, resulting in overcharges of about $1 million.
                                             Further, the recipient had not passed along discounts to the
                                             Department as required by Federal regulations. 5 Given that
                                             over $60 million in Recovery Act funding remained to be
                                             spent by the recipient, we believe it is imperative for the
                                             Department to obtain and review sufficient documentation
                                             to determine whether costs charged to the project are
                                             allowable, reasonable and in accordance with Federal
                                             regulations.



5
    48 Federal Acquisition Regulations System Part 31 Section 201-5


Page 4                                                                                 Details of Finding
            •   The Department reimbursed a third recipient about $3.7
                million, or 74 percent of the award, even though
                documentation submitted to the Department lacked
                evidence that the costs claimed corresponded to the items
                in the approved project budget. Although the recipient had
                not responded to a prior request by the Department for
                detailed documentation concerning the project's progress,
                additional funding through the Carbon Program was
                provided in September 2010 to expand work under an
                existing award. After receiving the additional funds, the
                recipient did not respond to numerous requests from
                program officials for documentation or questions related to
                the scope of work. Notably, officials suspended the award
                in January 2012 because the project was behind schedule,
                and the recipient failed to meet key deliverables.
                Department officials indicated that they were working with
                the recipient to recover unallowable costs. Until such time
                that all of the questionable costs have been repaid, we
                continue to question approximately $3.7 million in costs
                reimbursed by the Department.

            •   For a fourth recipient, the Department reimbursed the full
                Government share, approximately $573,000, even though
                the recipient had not met the terms of its award.
                Specifically, we found that the recipient had not provided
                its portion of the agreed-upon cost share or submitted a
                final report describing the results of its efforts. While
                Department officials were aware of these issues for over 2
                years and stated that they had made attempts to obtain the
                report, they had not taken action to cancel the award or
                recover any of the reimbursed funds. Until the recipient
                completes the requirements of the award and provides its
                full amount of cost share contributions, the Department
                remains at risk of paying more than its agreed-upon share
                of project costs. Furthermore, similar to the recipients
                previously mentioned, we were unable to verify that costs
                claimed corresponded to budgeted amounts because
                documentation submitted to the Department as part of the
                reimbursement request did not contain supporting evidence.
                Therefore, we questioned the $573,000 in total costs
                claimed under the award.

         In summary, we questioned reimbursements of up to $16.8 million
         at four of the recipients reviewed (see Appendix 1). Management
         commented, in response to our report, that it had taken action to
         begin recovering the questioned costs identified in our report, as


Page 5                                                  Details of Finding
         appropriate. Until all questionable costs are resolved, however, the
         Department remains at risk of paying more than necessary for
         activities supporting the Carbon Program.

         In addition to the previous examples, we also identified concerns
         related to another recipient's ability to meet agreed-upon cost share
         contributions. Specifically, the scope of the recipient's work under
         its award covered tasks for two projects – one of which was for a
         carbon dioxide compressor used to support carbon storage that was
         to be completed by November 2012. The other was for an engine
         power-wheel to be completed by December 2013. Although the
         Department considered the award to be one project, our analysis
         separated the projects because of differing cost share percentages
         and scopes of work. As of April 2012, the recipient had drawn
         down the full $20 million of the Department's cost share for tasks
         related to its compressor project, leaving approximately $10.4
         million to be contributed by the recipient to complete the work.

         Based on our analysis of existing financial documentation and
         future commitments for financial support at the time of our review,
         we estimated that the recipient may encounter a funding shortfall
         of at least $4.3 million (41 percent) of the total contribution for the
         compressor work. Under the current method of reimbursement in
         which the recipient was not required to submit documentation for
         review and approval, the Department lacked controls to ensure that
         Recovery Act funds drawn down by the recipient for the engine
         work will not be used to cover the shortfall. In fact, our review
         identified an instance in which the recipient drew down over
         $777,000 more than the amount authorized by the Department at
         that time. Management confirmed that the recipient had drawn
         down more than the amount authorized at the time, but noted that
         corrective actions had been taken to address the issue. Without
         additional monitoring, however, there is an increased risk that the
         Department may pay more than its agreed-upon share of the
         project's costs.

         Subsequent to our field work, the recipient requested and the
         Department approved an extension to the compressor project's
         period of performance and reallocated funds that would allow the
         recipient additional time to meet its cost share. In response to our
         review, management indicated that it did not share our concern
         regarding the recipient's ability to meet its cost share commitment
         based on these actions. Management also stated that recipients are
         required to notify the Department if they are unable to meet the
         cost share and if not, recipients must reimburse the Department the
         proportionate share of project costs. Given that the recipient



Page 6                                                      Details of Finding
         already exhausted the compressor project's Government's cost
         share and the project was a year behind schedule, we continue to
         believe that the recipient may be unable to meet its cost share
         commitment, increasing the risk that the scope of work may not be
         completed.

                Project Risks and Recovery Act Goals and Objectives

         We found that three recipients received funding even though the
         merit review process performed prior to award identified
         significant financial and/or technical issues. The projects, which
         were awarded over $90 million in total, experienced delays related
         to finalizing awards due to problems meeting financial
         commitments or overcoming technical issues. At the time of our
         review, the recipients had only spent about $7 million of the
         projects' funds. Specifically:

            •   The Department awarded one recipient more than $48
                million even though merit reviewers identified significant
                financial issues. As noted during the merit review, the low
                score was assigned based on uncertainty surrounding the
                recipient's ability to raise its cost share, combined with the
                fact that the organization and its parent company had
                experienced annual operating losses since their inception in
                2007 and 2004, respectively. Rather than addressing the
                underlying issues related to the risks, the Department
                elected to accept the merit review's recommendation to
                lower the recipient's required cost share from 60 percent to
                20 percent, or a reduction of over $24 million.

                Despite lowering the required cost share, the recipient was
                ultimately only able to raise $4.6 million of the $12.1
                million needed for its cost share, further increasing the risk
                that the project's goals may not be realized. As a result of
                financial problems, the recipient experienced schedule
                delays that increased the risk that intended goals and
                objectives would not be met. Specifically, even though the
                period of performance for the award was October 2010
                through September 2014, work on the project's second
                phase had not commenced as of July 2012 and was nearly 2
                years behind schedule. In fact, we noted that negotiations
                on budget and scope had yet to be finalized between the
                Department and the recipient.

                Based on the original period of performance of 48 months,
                we determined that the delays to the project would likely



Page 7                                                    Details of Finding
             extend the completion date beyond the expiration of
             Recovery Act funds. All Recovery Act funds may not be
             spent because the project's scope and budget had not been
             finalized, and because the second phase, which included
             construction and a majority of the funding, could not begin.
             At the time of our review, the recipient had only expended
             $2.5 million (5 percent) of its award.

         •   For another recipient, we noted that the project was
             awarded and had fully obligated $25 million by August
             2010 even though it had been given a low technical score
             during a merit review. Although the merit review
             identified major technical issues, the recipient was still
             recommended for selection because reviewers believed that
             it had the ability to promote and enhance the objectives of
             the Recovery Act in an expeditious manner, especially job
             creation, preservation and economic recovery in spite of its
             technical shortcomings.

             We found, however, consistent with the identified technical
             issues, the project suffered a number of problems during
             execution. For instance, the scope of the project had been
             significantly reduced, and the proposed creation of 272 jobs
             may not be realized. In fact, only 68 jobs had been created
             as of July 2012. In addition, the Department reduced the
             recipient's cost share from $92.6 million to $11.6 million
             (87 percent decrease) even though the high cost share was a
             significant factor in project selection because it had not met
             the technical criteria specified in the funding opportunity
             announcement.

             Similar to other recipients, we determined that this project's
             goals and objectives were also at risk of not being met. In
             particular, we found that the terms and conditions of the
             project had not been fully defined almost 2 years after
             award. At the time of our review, the recipient still had not
             raised its required cost share and, therefore, could not
             proceed into project construction. As of July 2012, the
             project was already 7 months behind schedule, and the
             Department's project manager indicated that the recipient's
             Engineering, Procurement and Construction firm may
             withdraw from the project if construction did not start soon,
             thereby putting the project even further behind schedule
             and increasing the risk that it would not be completed
             before the expiration of Recovery Act funds. As of July
             2012, the recipient had expended only about $4.4 million,
             or less than18 percent of the award.

Page 8                                                 Details of Finding
            •   We found that a third recipient's project was at risk of not
                meeting its intended goals and objectives. The recipient, as
                with the other project previously mentioned, was
                recommended for selection even though it had earned a low
                technical score. While major weaknesses related to
                technical aspects were identified, the project was selected
                to receive about $20 million based on its ability to
                expeditiously promote Recovery Act objectives and create
                a large number of jobs, as well as its proposed cost share
                contribution of 50 percent.

                Nearly 2 years after the award and obligation of funds, the
                project still had not been definitized because the
                Department had not yet resolved technical issues with the
                recipient, including proposed revisions to the project
                partner and location of work. While the Department had
                extended the period of performance, we found that the
                recipient had only spent about $125,000 at the time of our
                review, and the project may not be completed by the end of
                the Recovery Act if delays continue.

         To its credit, the Department divided these projects into sub-phases
         as a control measure to mitigate the risks associated with each
         recipient, and to prohibit recipients from spending funds until
         technical milestones were achieved. The Department also delayed
         definitization of each award until recipients could raise cost share
         and/or negotiations regarding the scope of work were completed.
         Further, the Department considered alternatives, such as
         segmenting projects into modules, to allow additional time to raise
         cost share or to finalize preliminary design efforts and allow some
         work to begin while negotiations continued.

                               Procurement Practices

         Recipient procurement practices supporting the Carbon Program
         did not always adequately ensure that subcontractor or vendor
         selections made by recipients represented the best value to the
         Government and were in accordance with relevant policies and
         procedures. Specifically, three recipients that we reviewed had not
         always documented their selections or sole source justifications,
         especially for instances in which the selections did not represent
         arm's-length transactions. In total, we identified over $4.1 million
         in recipient procurements that involved potential conflicts of
         interest. In each case, the recipients had provided information
         about the relationships to the Department that went undetected. In
         particular:



Page 9                                                   Details of Finding
                                      •    Contrary to Federal regulations 6 and its own procurement
                                           policies designed to promote competition and cost
                                           efficiencies, one recipient had not documented results of
                                           vendor selections or sole source justifications. The
                                           recipient's procurement manager stated that he had relied
                                           on engineers to justify selections. This concerned us
                                           because we identified transactions totaling over $1.4
                                           million in which the recipient contracted with an affiliated
                                           company that had representatives on its Board of Directors.
                                           While we noted that evidence of the relationship was
                                           contained in the recipient's award documentation, it was not
                                           questioned by the Department. Consequently, we could not
                                           determine, and the Department lacked assurance, that
                                           goods and services were procured from the most qualified
                                           sources at the best price available. Until such time that the
                                           costs have been reviewed, we are questioning over $1.4
                                           million in related party transaction costs.

                                      •    For a second recipient, documentation did not exist to
                                           support procurement transactions that involved a potential
                                           conflict of interest. In particular, we found that the
                                           recipient's owner was also a co-owner, along with other
                                           members of his family, of a company that was performing
                                           work on the project and had received approximately
                                           $60,000 as of the time of our review. Given the close
                                           relationship of the parties, these transactions raised
                                           concerns because neither we nor the Department could
                                           determine if the services were procured at the best price
                                           available. In our view, evidence of the related party
                                           transactions included in the request for reimbursement
                                           packages sent to the Department, including lists containing
                                           employee last names common to both companies, should
                                           have led to questions about the relationship and the
                                           reasonableness of the costs. While we question the
                                           $60,000, these costs were previously included in our
                                           analysis of questionable costs.

                                      •    The owner of a third recipient also owned the project's
                                           primary vendor that had received about $2.7 million, or
                                           more than 50 percent of the available Carbon Program
                                           funding. Similar to the examples previously mentioned,
                                           documentation demonstrating the justification for selecting
                                           this vendor was not available; therefore, we could not
                                           determine if the services were procured at the lowest

6
 10 Code of Federal Regulations Part 600 Sections 600.311 and 600.331 (a) and 48 Federal Acquisition Regulations
System Part 31 Sections 31.201-2(d) and 31.201-3


Page 10                                                                                  Details of Finding
                                  available cost. Had a thorough review of documentation
                                  included in requests for reimbursement been conducted,
                                  evidence of the possible conflict of interest may have been
                                  identified and resulted in questions about the relationship
                                  and reasonableness of costs. For instance, we found that
                                  invoices submitted to the Department contained the same
                                  address for both the prime recipient and the recipient's
                                  vendor. While we are questioning the $2.7 million, these
                                  costs were previously included in our analysis of
                                  questionable costs.

                           In response to our review, the Department indicated that it had
                           reviewed the transactions associated with the $60,000 in costs
                           noted in our report and concluded that the amounts paid were
                           reasonable for the services provided. The Department stated that it
                           would review the other two projects discussed above for cost
                           reasonableness. While this is a positive step, we remain concerned
                           that similar transactions may occur because the Department failed
                           to identify and/or question costs even though evidence of potential
                           conflicts of interest was provided in the reimbursement requests.

                           Other recent Office of Inspector General efforts identified similar
                           issues related to recipient procurement practices and the
                           identification of conflicts of interest. For instance, our audit report
                           on The Department of Energy's Clean Cities Alternative Fuel
                           Vehicle Grant Program Funded under the American Recovery and
                           Reinvestment Act (OAS-RA-12-12, May 2012) found that the
                           Department had allowed recipients to award funding without
                           documenting decisions to award contracts and/or identifying
                           potential conflicts of interest as required by Federal procurement
                           regulations.

Performance Monitoring The issues we identified occurred, in part, because program
and Policies and       officials had not always provided effective monitoring and
Procedures             oversight of recipient activities. Specifically, the Department had
                       not implemented certain performance monitoring controls that
                       could have allowed for more thorough reviews of costs prior to
                       reimbursement. In addition, we found that policies and procedures
                       related to managing the Carbon Program were either not developed
                       or not fully implemented.

                                                 Monitoring of Recipients

                           The Department had not implemented certain performance
                           monitoring and oversight controls that could have allowed for
                           more thorough reviews of costs prior to reimbursement and been
                           used to identify questionable and/or unallowable costs. For

Page 11                                                                       Details of Finding
          instance, the Department allowed two projects in our sample to
          remain on a method of reimbursement that permitted recipients to
          draw down funds from the Department without submitting
          supporting documentation for approval. While the Department had
          the authority to request invoice backup at any time for one of the
          recipients, we found that it had neither requested nor reviewed any
          invoice backup to support claimed costs. In addition, although
          terms and conditions of the awards required recipients to provide
          support for reimbursement claims, the Department's review of
          requests for reimbursement from three of the recipients previously
          mentioned was not sufficient to ensure that all costs were
          reasonable and appropriately documented. Although the
          Department's Project Manager and Contract Specialist were
          responsible for reviewing requests for reimbursement and cost
          share contributions for reasonableness and allowability, our review
          identified that the Department had approved cost reimbursement
          requests without sufficient documentation to justify approval.
          While the Department asserted that it had reconciled the amounts
          billed under each award to ensure they aligned with approved
          budgets and technical progress, documentation we reviewed
          provided no evidence to demonstrate that reconciliations were
          performed. Furthermore, the Department had not exercised its
          authority under the terms of two of the awards to obtain additional
          backup documentation. A Department official indicated that
          certain types of information, such as timecards, were not requested
          due to perceived liability concerns related to protecting personally
          identifiable information.

          In addition, the Department had not ensured that reviews of
          recipients' controls over accounting practices designed to identify
          irregularities were conducted in a timely manner. In particular,
          program officials relied on the results of a Defense Contract Audit
          Agency (DCAA) audit of incurred costs claimed from Fiscal Years
          2004 – 2005 for one recipient to determine whether indirect rates
          were reasonable and the accounting system was adequate. At the
          time of our review, however, the Department had not requested a
          follow-up audit of the recipient's accounting system despite an
          increase in the scope and size of the award as well as changes in
          company's structure. A follow-up review may have identified
          many of the same issues noted in our report. For another recipient,
          a 2010 DCAA review identified significant weaknesses related to
          the ability to accumulate and bill costs to Government contracts.
          The Department, however, had not ensured that compliance
          reviews of internal controls required by 10 Code of Federal
          Regulations Part 600 were conducted to ensure that weaknesses
          were corrected.



Page 12                                                   Details of Finding
          Furthermore, we noted that the Department waived cost/price
          analyses required by the Department's Federal Project
          Management Center for several recipients despite uncertainties
          related to their financial positions. Cost/price reviews are designed
          to determine the reasonableness of proposed budgets and details of
          cost share contributions. Under the Federal Project Management
          Center's guidelines, a comprehensive cost/price analysis must be
          performed to assess specific items of costs for any negotiated
          award anticipated to be in excess of $15 million. However,
          Department officials indicated that based on the pressure to
          obligate Recovery Act funds in a timely manner, a number of
          projects had not received a cost/price review prior to award.
          Additionally, officials indicated that while in the past they had
          relied on the DCAA to conduct reviews of recipients, there had
          been a significant backlog of DCAA reviews since 2008, and the
          Department was unable to obtain the reviews prior to making
          awards. However, we noted that the Department had a contract
          with an independent public accounting firm that was available to
          programs for obtaining, among other things, cost/price reviews
          under the Recovery Act. Had such reviews been completed, the
          Department may have been able to identify weaknesses related to
          questionable costs and/or the recipients' ability to meet cost share
          obligations.

          Finally, while program officials generally performed site visits to
          recipients, we found that these visits focused on technical aspects
          of the projects and had not included reviews of compliance with
          Federal procurement requirements or cost documentation.
          Contract specialists – the Department officials responsible for
          approving reimbursement requests – that we spoke with expressed
          concerns with being overwhelmed by their workload and did not
          have time to sufficiently review costs for every project. In
          preliminary comments on our report, officials noted that their
          substantial involvement was only required for technical oversight,
          not financial monitoring. Officials indicated that they relied on
          recipients to ensure compliance with Federal requirements and
          were concerned that they may be accused of negatively impacting
          the project's progress. However, cooperative agreements, by
          definition, require the substantial involvement of the Department
          including enhanced oversight and stewardship responsibilities such
          as reviews of financial performance. Thorough reviews of
          procurement practices and costs may have identified certain
          weaknesses noted in our report, including potential conflicts of
          interest and inadequate competition.




Page 13                                                    Details of Finding
                                                              Policies and Procedures

                                     The Department had not always developed and/or implemented
                                     policies and procedures for effectively managing administration of
                                     the Carbon Program. Specifically, we found that the program had
                                     not maintained records related to significant program decisions in
                                     accordance with regulations that could have supported the
                                     Department's decisions to accelerate existing projects or the
                                     rationale used to select projects to receive additional funding.
                                     Federal and Departmental policies require decisions of significant
                                     events to be documented and made available for examination. Due
                                     to the significant amount of funding awarded to existing projects,
                                     we believe that the Department's decision and selection process
                                     should have been formally documented to ensure that projects
                                     selected aligned with the goals of the Carbon Program. In
                                     addition, in light of the transparency and accountability
                                     requirements of the Recovery Act, a sound records management
                                     system was imperative to ensure that funds were spent in the best
                                     interest of the Government and taxpayers.

                                     Even when policies and procedures were in place such as the
                                     selection criteria in the funding opportunity announcement, the
                                     Department had not consistently applied them to ensure effective
                                     management of the Carbon Program. Specifically, program
                                     officials selected recipients to receive funding as part of the merit
                                     review process even though the recipients did not meet established
                                     selection criteria designed to identify financial or technical issues
                                     that could impact the success of a project. As previously
                                     mentioned, three recipients received funding even though the merit
                                     review process identified significant financial and/or technical
                                     issues prior to being recommended for selection. The same
                                     recipients have experienced significant project delays that
                                     increased the risk that the projects may not be completed,
                                     objectives of the Carbon Program may not be met and Recovery
                                     Act funds may not be spent.

                                     Finally, the Department had not developed formal procurement
                                     policies and procedures requiring officials to review funded
                                     projects for related party transactions or potential conflicts of
                                     interest. According to Federal regulations 7, the reasonableness of
                                     specific costs must be examined with particular care in connection
                                     with firms or separate divisions that may not be subject to effective
                                     competitive restraints, including consideration of arm's-length
                                     bargaining.


7
    48 Federal Acquisition Regulations System Part 31 Section 31.201-3(a) and, 31.201-3(b)


Page 14                                                                                      Details of Finding
                                     As noted in this report, even though evidence of related party
                                     transactions existed in documentation submitted to the Department
                                     for recipients we evaluated, the Department had not reviewed the
                                     information as required for such transactions to identify possible
                                     conflicts of interest and subsequently reimbursed the recipients
                                     without questioning the reasonableness of the costs. In addition,
                                     although the Department's guidance on Financial Assistance
                                     Awards 8 required a consideration of the relationships among
                                     partnerships or consortiums during the award process, it did not
                                     have formal procedures requiring officials to review available
                                     information submitted by recipients regarding potential conflicts of
                                     interest. Furthermore, the Department had not established policies
                                     requiring a review of procurement practices to ensure selections
                                     made by recipients were appropriate and in accordance with
                                     relevant policies and procedures. Without adequate
                                     documentation, neither we nor the Department could determine
                                     whether subcontractor or vendor selections represented the best
                                     value to the Government.

Impact and Path                      In light of the issues we identified, we believe that Recovery Act
Forward                              and Carbon Program goals may not be achieved without
                                     implementation of corrective actions. Specifically, projects may
                                     not be completed, deliverables might not be received, job creation
                                     will not meet anticipated targets and Recovery Act funding could
                                     go unspent. During our review, we also identified approximately
                                     $18.3 million in questioned and/or unallowable costs that should
                                     be resolved. Unsubstantiated cost reimbursements and cost share
                                     contributions increase the risk that the Department will pay more
                                     than its agreed-upon share of project costs. In addition, our review
                                     identified other issues such as inadequate procurement practices
                                     that increase the risk that the Department may not obtain goods
                                     and services at the best price available or from the most qualified
                                     sources. This is significant because of the $1.5 billion in Recovery
                                     Act funding obligated to projects under the Carbon Program, over
                                     $860 million, or approximately 58 percent, remains to be spent.

RECOMMENDATIONS                      Due to the significant amount of funding that remains to be spent,
                                     the Department has an opportunity to enhance its path forward. To
                                     help achieve the objectives of the Recovery Act, we recommend
                                     that the Assistant Secretary for Fossil Energy direct Carbon
                                     Program officials to:

                                            1. Enhance monitoring procedures, including evaluating
                                               recipient documentation to support costs claimed and
                                               ensuring that reviews such as audits of internal controls
                                               are conducted, as required;
8
    Department of Energy Guide to Financial Assistance, Chapter 2 Section 2.5 (d)(1)

Page 15                                                                                Recommendations
                        2. Ensure that significant decisions supporting the Carbon
                           Program are adequately documented; and,

                        3. Develop and implement policies and procedures to ensure
                           the Department conducts reviews designed to identify and
                           mitigate potential conflicts of interest and enforce
                           requirements pertaining to documentation of procurement
                           decisions including reasons for sole source selections.

                       In addition, we recommend that the contracting officers for
                       the Carbon Program:

                        4. Conduct a review of questioned costs identified in our
                           report and determine whether the costs were allowable
                           and reasonable.

MANAGEMENT         Management concurred with three of the four recommendations
REACTION AND       in our report and indicated that it had initiated and/or taken
AUDITOR COMMENTS   corrective actions to address our findings. Management agreed that
                   cooperative agreements required substantial involvement and
                   commented that it was committed to effective management of its
                   cooperative agreements and strives to implement sound management
                   practices with the proper balance of Federal stewardship. For
                   instance, management stated that it will review project monitoring
                   procedures to ensure that sound guidance exists for conducting
                   consistent, thorough reviews of documentation supporting invoiced
                   costs. In addition, management commented that it will issue a policy
                   statement that significant programmatic decisions should be
                   adequately documented. Furthermore, management noted that it had
                   taken action to recover a portion of the questioned costs identified in
                   our report and will recover the remaining costs, as appropriate.
                   Although management concurred with the majority of our
                   recommendations, it did not agree that the Department should
                   implement procedures related to documenting procurement decisions
                   and asserted that recipients were required to report potential conflicts
                   of interest. Management also provided technical comments that
                   have been addressed in the body of the report, where appropriate.
                   We have summarized management's comments and our response to
                   each. Management's comments are included in their entirety in
                   Appendix 4.

                   Management commented that the Department was not required to
                   competitively select projects under the Carbon Program and stated
                   that the Recovery Act guidance cited in our report was not a
                   statutory requirement. Management also asserted that, although



Page 16                                         Recommendations and Comments
          the decision to use Recovery Act funding to accelerate projects
          was made by senior Department officials who had since left the
          Department, we failed to obtain access to records supporting those
          decisions.

          Our review determined that the Department used the Recovery Act
          guidance as criteria when developing its project operating plan and
          funding opportunity announcement for the Carbon Program. As a
          result of the Department identifying it as criteria for implementing
          the program, we believe that officials should have selected projects
          in accordance with the guidance. We take specific issue with
          management's comment that we failed to obtain records, which it
          implies were available. As noted in our report, we made numerous
          attempts to obtain supporting documentation related to
          management's decision-making process. However, the Department
          was unable to provide records demonstrating the formal approval
          to use funds to accelerate existing projects.

          Management commented that the Department did not use merit
          review scores to exclude projects from selection and noted that
          selecting officials also consider program policy factors when
          deciding which projects should receive financial assistance.
          Management also asserted that the risk of projects falling behind
          schedule and not meeting goals or cost share requirements is a
          common risk that cannot be eliminated when funding novel
          demonstration and research and development projects.

          As noted in our report, the Department awarded funds to recipients
          even though the merit review process identified significant technical
          and/or financial issues. While we recognize the Department's ability
          to consider other factors in the selection process and understand that
          projects such as those included in our review encounter various risks,
          we found that the financial and/or technical issues identified by the
          merit review for the recipients included in our evaluation ultimately
          led to delays in finalizing the awards. In light of the difficulties
          identified during the merit review process, we believe the problems
          highlighted in our report were reasonably predictable and placed the
          projects at significant risk for failure.

          Management did not agree with our recommendation that the
          Department should develop and implement policies and procedures
          designed to identify and mitigate conflicts of interest or that it
          should enforce requirements pertaining to documentation of
          procurement decisions. Management stated that obtaining full
          documentation of pre-award decisions was neither practical nor
          required. In addition, management indicated that it was the



Page 17                                                          Comments
          recipients' responsibility to identify and mitigate conflicts of
          interest using plans or policies specific to the organization and
          commented that recipients are required to provide assurance to the
          Department that conflicts of interest do not exist.

          Although management disagreed with our recommendation,
          Federal and Department regulations require recipients to maintain
          documentation supporting all costs incurred under an award when
          funded with Federal monies, which would include support for
          procurement decisions such as the use of noncompetitive sub-
          awards. We agree that recipients have a duty to identify and
          surface conflicts of interest issues. The Department, however, is
          also required to review costs for related party transactions,
          including potential conflicts of interest and arm's-length
          transactions. The Department's guidance on Financial Assistance
          Awards also required a consideration of the relationships among
          partnerships or consortiums during the award process.




Page 18                                                          Comments
Appendix 1

                                    QUESTIONED COSTS

This chart summarizes the questioned costs identified in the report. As discussed in the report,
the questioned costs related to pre-award costs, unsupported costs, unallowable costs and
questionable costs associated with related party transactions. These costs were discussed in the
Questioned Costs and Procurement Practices sections of the report.


                                                                          Questioned
                                  Example                                   Costs
             1. Costs Incurred Prior to Award                               $1,082,000
             2. Unjustified Bonuses Charged to Project                        $770,000
             3. Unallowable Costs Charged to Project                          $600,000
             4. Unsupported Costs Reimbursed to Recipient                  $10,100,000
             5. Costs Not Corresponding to Approved Budget                  $3,700,000
             6. Unsupported Costs and Final Deliverables Not                  $573,000
                 Received
          Sub-total                                                        $16,825,000
             7. Costs Associated with Related Party Transactions            $1,434,000
          Total                                                            $18,259,000




Page 19                                                                       Questioned Costs
Appendix 2

OBJECTIVE     To determine whether the Department of Energy (Department)
              effectively and efficiently managed the Industrial Carbon Capture
              and Storage Program (Carbon Program).

SCOPE         This audit was performed between February 2012 and March 2013,
              at the National Energy Technology Laboratory (NETL) in
              Morgantown, West Virginia and Pittsburgh, Pennsylvania. In
              addition, we conducted site visits to three recipients in Bellevue,
              Washington; Monrovia, California; and Highland Heights, Ohio.

METHODOLOGY   To accomplish the objective, we:

                   •   Obtained and reviewed relevant laws and regulations
                       related to implementation of the American Recovery and
                       Reinvestment Act of 2009 and financial assistance award
                       administration.

                   •   Reviewed the Funding Opportunity Announcement for
                       the Carbon Program as well as merit review information
                       and selection documentation.

                   •   Identified a universe of 46 active and/or closed
                       cooperative agreements under the Carbon Program and
                       reviewed award documentation for a judgmental sample
                       of 15 awards that were selected based on recipient type
                       and dollar coverage. For recipients included in our
                       sample, we judgmentally selected financial transactions
                       to review for questionable costs based upon reviews of
                       recipient files.

                   •   Conducted site visits to three recipients to discuss
                       management of the projects, reviewed recipients' policies
                       and procedures for tracking project costs and analyzed
                       financial transactions related to the projects.

                   •   Interviewed project managers and contract specialists for
                       a sample of recipients to determine the roles and
                       responsibilities related to monitoring of awards.

                   •   Conducted interviews with NETL officials to discuss
                       management of the Carbon Program.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe the
              evidence obtained provides a reasonable basis for our findings and

Page 20                                    Objective, Scope and Methodology
Appendix 2 (continued)

                    conclusions based on our audit objective. Accordingly, we
                    assessed internal controls and compliance with laws and
                    regulations to the extent necessary to satisfy the audit objective.
                    We assessed performance measures in accordance with the GPRA
                    Modernization Act of 2010 and concluded that the Department had
                    established performance measures related to the Carbon Program.
                    Because our review was limited, it would not necessarily have
                    disclosed all internal control deficiencies that may have existed at
                    the time of our audit. Finally, we conducted an assessment of
                    computer-processed data relevant to our audit objective and found
                    it to be reliable.

                    Management waived an exit conference.




Page 21                                          Objective, Scope and Methodology
Appendix 3

                                     PRIOR REPORTS


  •   Audit Report on The Department of Energy's $700 Million Smart Grid Demonstration
      Program Funded through the American Recovery and Reinvestment Act of 2009 (OAS-
      RA-13-08, January 2013). This report found that the Department of Energy
      (Department) had not always managed the Smart Grid Demonstration Program
      effectively and efficiently. Specifically, the report identified weaknesses related to
      reimbursement requests, cost-share contributions and coordination efforts with another
      Department program. Further, the Department had not adequately reviewed financial
      transactions and planned for or monitored recipient cost-share provisions, resulting in
      about $12.3 million in questioned costs.

  •   Audit Report on The Department of Energy's Clean Cities Alternative Fuel Vehicle Grant
      Program Funded under the American Recovery and Reinvestment Act (OAS-RA-12-12,
      May 2012). This report found that the Department had not always effectively managed
      the use of American Recovery and Reinvestment Act of 2009 funding and other post-
      award aspects of the Clean Cities Program. Specifically, the report identified issues
      pertaining to questionable reimbursements and cost share contributions, costs incurred
      prior to award and recipient procurement decisions that had not been documented as
      required by Federal regulations.

  •   Audit Report on The Department's Management of the Smart Grid Investment Grant
      Program (OAS-RA-12-04, January 2012). This report found that the Department had
      approved projects that used Federally-sourced funds to meet cost share requirements even
      though it was prohibited by regulation. In addition, the report noted that the Department
      had not always followed effective business practices when reimbursing grant recipients.

  •   Audit Repot on The Advanced Research Projects Agency – Energy (OAS-RA-11-11,
      August 2011). This report found that the Advanced Research Projects Agency – Energy,
      an agency within the Department, had not drafted or, in some cases, approved draft
      policies and procedures in significant areas such as monitoring and oversight of awardees
      and the review of awardee invoices. The report noted that due to a lack of guidelines, the
      emphasis of monitoring and oversight activities, particularly during site visits, was on
      technical performance and not on business aspects of the awards such as the recipient's
      internal control structure. In addition, the report found issues regarding the consistency
      of documentation submitted by recipients.

  •   Audit Report on Management of Fossil Energy Cooperative Agreements (DOE/IG-0692,
      July 2005). This report found that the Office of Fossil Energy was not always adequately
      involved with monitoring and oversight of cooperative agreements, and Federal project
      officials had not always taken adequate action to address project management or financial
      shortcomings. The report noted that project officials had not performed needed reviews
      or waived requirements designed to ensure that the Government's interests were
      protected.



Page 22                                                                          Prior Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 23                            Management Comments
Appendix 4 (continued)




Page 24                  Management Comments
Appendix 4 (continued)




Page 25                  Management Comments
                                                                  IG Report No. OAS-RA-13-15

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
